U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Walker v. United States, No. 21-102
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 22, 2021.
The government’s response is now due, after one extension, on September 24, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 22, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0102
WALKER, MARCUS
USA

JOHN PATRICK ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5992
JOHN.ELWOOD@ARNOLDPORTER.COM
LINDA DALE HOFFA
DILWORTH PAXON LLP
DILWORTH PAXSON, LLP
1500 MARKET STREET
SUITE 3500 E
PHILADELPHIA, PA 19102
215-575-7000

